OIG Investigative Reports, Ash Flat Return Preparer Indicted on Theft of Government Funds and Tax Charges
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigation Report
United States Attorney Benjamin B. Wagner
Eastern District of California
For Immediate Release
Monday, August 9, 2010
www.usdoj.gov/usao/cae
Contactt: Lauren Horwood
(916) 554-2706
usacae.edcapress@usdoj.gov
Docket #: 2:09-CR-00422-WBS
SACRAMENTO MAN PLEADS GUILTY TO PARTICIPATING IN FEDERAL STUDENT LOAN FRAUD RING
SACRAMENTO, Calif. — United States Attorney Benjamin B. Wagner announced today that Jarmal Duplessis, 22, of Sacramento, pleaded guilty today before Senior United States District Judge William B. Shubb to a conspiracy to commit student loan fraud.
This case is the product of an extensive investigation by the United States Department of Education, Office of the Inspector General and is being prosecuted by Assistant United States Attorney Jean M. Hobler.
Also charged in the case are Nakesha Sharrieff, aka Takiyah Raheem and Aysia Hanifah Kahan, 23; Thomas Keys, 23; Hoa Tasha Kelly, aka Tasha Kelly, 24; Jewel Minor, 24; and Teaona Williams, 24; all of Sacramento.
According to the guilty plea, Duplessis admitted that in November of 2008, Hoa Kelly asked him if he wanted to get financial aid money without having to go to school. Duplessis agreed and gave her his social security card and date of birth. Duplessis never
had the intention of going to school, nor did he intend to pay the money back. Kelly gave the information to Sharrieff, who applied for federal student aid funds in Duplessis’s name and through the Los Rios Community College District. All of the funds obtained
via the scheme were federally provided or insured.
Duplessis admitted in his guilty plea that Kelly called him when checks arrived in his name. Duplessis then met Sharrieff and Kelly at a bank, where he signed and cashed the checks and gave the cash to Sharrieff, who gave him a percentage. He then gave Kelly
a “finder’s fee” out of his portion. Duplessis was aware that others were involved in the scheme and recruited at least one other person to participate.
“I want to commend OIG Special Agents and our partners in law enforcement whose actions brought about today’s action. I would also like to thank the staff of the school for referring this matter to our office,” said Kathleen S. Tighe, Inspector General of
the U.S. Department of Education. "Working together, we will aggressively pursue anyone who steals student financial aid and hold them accountable for their unlawful actions."
Duplessis is scheduled to be sentenced by Judge Shubb on October 25, 2010, at 8:30 a.m. He faces a maximum sentence of five years in prison, a $250,000 fine, or both. The actual sentence, however, will be determined at the discretion of the court after consideration
of any applicable statutory factors and the Federal Sentencing Guidelines, which take into account a number of variables.
As to the charged defendants, the charges are only allegations and the defendants are presumed innocent until and unless proven guilty beyond a reasonable doubt.
Printable view
Last Modified: 08/10/2010
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov